ROB BONTA
Attorney General

State of California
DEPARTMENT OF JUSTICE
455 GOLDEN GATE AVENUE, SUITE 11000
SAN FRANCISCO, CA 94102-7004

Public: (415) 510-4400
Telephone: (415) 510-3896
Facsimile: (415) 703-2552
E-Mail: Josh.Patashnik@doj.ca.gov

July 28, 2021
Hon. Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
RE:

Cal. State Lands Comm’n v. Davis, No. 21-109

Dear Mr. Harris:
Under Rule 12.6, the State of California is a respondent in this case because it was a party
in the court of appeals. This letter is to inform the Court that the State does not intend to file or
join any petition for a writ of certiorari in this case, and does not intend to file any response to
the California State Lands Commission’s petition unless the Court requests that the State do so. 1
If the Court were to grant certiorari, the State would intend to participate as a respondent in
support of petitioner and would intend to file merits briefs in accordance with the timing
described in Rule 25.1.
Sincerely,
/s/ Joshua Patashnik
JOSHUA PATASHNIK
Deputy Solicitor General
For
CC (by email):

1

ROB BONTA
Attorney General

Steven S. Rosenthal and Marc S. Cohen, counsel for petitioner
Warren W. Harris, Mark E. Dendinger, Jason B. Hutt, and Brittany M.
Pemberton, counsel for respondent Eugene Davis

As authorized by California law, the Lands Commission is represented by private counsel. See
Cal. Gov. Code §§ 11040(c)(1), (d); 11041(a); 11042. The State was separately named as a party
in this litigation, see Pet. App. 7a, and is represented by the Attorney General.

